‘SIDLEY AUSTIN LLP

1501 K STREET, N.W.
S | D LEY WASHINGTON, D.C. 20005

+1 202 736 8000

+1 202 736 8711 FAX

+1 202 736 8291

AMERICA « ASIA PACIFIC « EUROPE JGREEN@SIDLEY.COM
CERTIFICATE OF SERVICE
No. 19-1291

Charles Hamner,

Petitioner,

v.

Danny Burls, et al.
Respondents.

I, Jeffrey T. Green, do hereby certify that, on this 15th day of June, 2020, I
caused one copy of the Brief of Amici Curiae Professors and Practitioners of
Psychiatry, Psychology, and Medicine in support of Petitioner in the foregoing case
to be served electronically and by first class mail, postage prepaid, on the following
parties:

Daniel M. Greenfield Nicholas Jacob Bronni

MacArthur Justice Center Solicitor General of Arkansas
Northwestern Pritzker School of Law Arkansas Attorney General's Office
875 E. Chicago Ave. 323 Center St. Suite 200

Chicago, IL 60611 Little Rock, AR 72201

(312) 503-8359 (501) 682-6302

daniel-greenfield nicholas. bronni@arkansasag.gov

@law.northwestern.edu

Counsel for Petitioner Counsel for Respondents

<I
REY T-GR
(ated AUSTIN LLP
61 K Street, N.W.
Washington, D.C. 20009

(202) 736-8000

   

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in afilation with other Sidley Austin partnerships.
